Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   THE EMERGENCY MEDICAL
  TREATMENT AND LABOR ACT

      The Enforcement Process




                      JANUARY 2001
                      OEI-09-98-00221
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco regional office prepared this report under the direction of Paul A. Gottlober,
Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

Cindy Lemesh, Project Leader                            Bambi Straw, Program Specialist

Jay Davidson, Lead Analyst

Scott Hutchison, Program Analyst





     To obtain copies of this report, please call the San Francisco Regional Office at 415-437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                  EXECUTIVE                          SUMMARY

PURPOSE

       The purpose of this inspection was to evaluate the enforcement process for the Emergency
       Medical Treatment and Labor Act (EMTALA).


BACKGROUND

       Congress passed EMTALA, part of the Consolidated Omnibus Reconciliation Act
       (COBRA) of 1985, in April 1986 to address the problem of “patient dumping.” The term
       “patient dumping” refers to certain situations where hospitals fail to screen, treat, or
       appropriately transfer patients. According to Section 9121 of COBRA, Medicare-
       participating hospitals must provide a medical screening exam to any individual who
       comes to the emergency department and requests examination or treatment for a medical
       condition. If a hospital determines that an individual has a medical emergency, it must
       then stabilize the condition or provide for an appropriate transfer. The hospital is
       obligated to provide these services regardless of the individual’s ability to pay and without
       delay to inquire about the individual’s method of payment or insurance status.

       Congress created a bifurcated enforcement mechanism for EMTALA within the
       Department of Health and Human Services. The Health Care Financing Administration
       (HCFA) authorizes investigations of dumping complaints by State survey agencies,
       determines if a violation occurred, and, if appropriate, terminates a hospital’s provider
       agreement. The Office of Inspector General (OIG) assesses civil monetary penalties
       against hospitals and physicians and may exclude physicians from the Medicare program
       for repeated or gross and flagrant behavior. The HCFA may seek the input of the local
       peer review organization (PRO) after the State’s investigation to help determine whether
       the hospital adequately screened, examined, and treated a patient but must seek PRO input
       in most circumstances before forwarding a case to the OIG if the alleged violation involves
       a question of medical judgment.

       We interviewed staff at HCFA regional offices, State survey agencies, the PROs, and the
       OIG between June and December 1999. We also reviewed relevant HCFA manuals and
       guidelines as well as law journals. We obtained logs from HCFA that contain information
       about EMTALA complaints and the outcomes of investigations between Fiscal Years
       1986 and 1998.




EMTALA — Enforcement                             1                                 OEI-09-98-00221
FINDINGS

       The EMTALA enforcement process is compromised by long delays and inadequate
       feedback. Timely processing of EMTALA cases is a longstanding problem. Delays have
       worsened in recent years, despite a decline in dumping cases. In addition, HCFA regional
       offices often fail to communicate their decisions to State survey agencies and the PROs.

       The number of EMTALA investigations and their ultimate disposition vary widely
       by HCFA region and year. Regional offices vary greatly in the number of EMTALA
       investigations that they conduct and the outcomes of those investigations. For example,
       one region found violations in 22 percent of its investigations while another region found
       violations in 68 percent of its investigations.

       Poor tracking of EMTALA cases impedes oversight. The HCFA’s investigation logs
       contain numerous errors and omit key information about dumping complaints and
       EMTALA investigations. Although HCFA’s central office chose a particular software
       application for tracking EMTALA cases, some regional offices continue to use their own
       methods for data collection.

       Peer review is not always obtained before HCFA considers terminating a hospital
       for medical reasons. The HCFA instructs States to obtain professional medical review
       during an EMTALA investigation, but this does not always occur. The HCFA has the
       option of requesting peer review, but this is discretionary even if the State did not obtain
       peer review. In most cases, the OIG must seek PRO input and may drop a case if the
       PRO finds that medical care was adequate.


RECOMMENDATIONS

       We recommend that HCFA:

       <       increase its oversight of regional offices,

       <       improve collection and access to EMTALA data,

       <       ensure that peer review occurs for cases involving medical judgment, and

       <       establish an EMTALA technical advisory group.




EMTALA — Enforcement                             2                                  OEI-09-98-00221
AGENCY COMMENTS

       We received written comments from HCFA on the draft report, which are included in the
       appendix. The HCFA concurred with our recommendations. The comments describe a
       dedicated HCFA effort to reduce backlogs, improve data collection, and increase
       coordination among the regions. The HCFA also offered several technical comments,
       which we have incorporated where appropriate.




EMTALA — Enforcement                          3                              OEI-09-98-00221
                          TABLE                         OF               CONTENTS


                                                                                                                                  PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Long delays and inadequate feedback . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Case disposition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Poor tracking . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Peer review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDIX


          Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





EMTALA — Enforcement                                                 4                                               OEI-09-98-00221
                                  INTRODUCTION

PURPOSE

         The purpose of this inspection was to evaluate the enforcement process for the Emergency
         Medical Treatment and Labor Act (EMTALA).


BACKGROUND

Requirements of the Emergency Medical Treatment and Labor Act

         Congress passed EMTALA, part of the Consolidated Omnibus Reconciliation Act
         (COBRA) of 1985, in April 19861 to address the problem of “patient dumping.” The term
         “patient dumping” refers to certain situations where hospitals fail to screen, treat, or
         appropriately transfer patients. According to Section 9121 of COBRA, Medicare-
         participating hospitals must provide a medical screening exam to any individual who
         comes to the emergency department and requests examination or treatment for a medical
         condition. If a hospital determines that an individual has an emergency medical condition,2
         it must then stabilize the condition or provide for an appropriate transfer. The hospital is
         obligated to provide these services regardless of the individual’s ability to pay and without
         delay to inquire about the individual’s method of payment or insurance status. Hospitals
         may transfer unstable patients only if a physician determines that the benefits of the
         transfer outweigh the risks or if requested by a patient who has been informed of both the
         hospital’s EMTALA obligations and the risks of transfer. Hospitals with specialized care
         facilities, such as burn units, must, within their capacity, accept requests for appropriate
         transfers of patients who require such specialized care. The following diagram illustrates
         the basic EMTALA requirements:




   1
    EMTALA became effective on August 1, 1986.
   2
      Emergency medical condition is defined by law as “a medical condition manifesting itself by acute symptoms
of sufficient severity (including severe pain) such that the absence of immediate medical attention could reasonably
be expected to result in (i) placing the health of the individual (or, with respect to a pregnant woman, the health of
the woman or her unborn child) in serious jeopardy; (ii) serious impairment to bodily functions; or
(iii) serious dysfunction of any bodily organ or part . . .”
EMTALA — Enforcement                                      5                                       OEI-09-98-00221
                           Figure 1: Basic EMTALA Requirements


                                        Emergency room patients must receive a
                                        medical screening exam without delay
                                        to determine if they have an emergency
                                        medical condition.




                           Patient has an                         Patient does not
                         emergency medical                       have an emergency
                             condition.                          medical condition.




                       Hospital                            Hospital cannot stabilize
                       stabilizes                          patient and provides an
                       patient.                            appropriate transfer.




                        Hospital has fulfilled basic EMTALA requirements.




       The specific requirements of EMTALA are incorporated in each hospital’s Medicare
       provider agreement. The Health Care Financing Administration (HCFA) requires that in
       addition to providing a medical screening examination and necessary stabilizing treatment
       and appropriate transfers (i.e., the statutory requirements), hospitals must post signs,
       maintain a central log, an on-call roster and patient transfer records, and report EMTALA
       violations to HCFA or the State survey agency. All such obligations are considered equal,
       and failure to meet any of them constitutes a breach of the Medicare provider agreement
       and possible basis for termination. Hospitals also may be subject to civil monetary
       penalties of up to $50,000 per violation ($25,000 for hospitals with fewer than 100 beds)
       and civil action. Physicians who negligently violate EMTALA also are subject to civil
       monetary penalties and, for repeated or gross and flagrant violations, exclusion from
       Medicare.

Enforcement Mechanisms and Trends

       The HCFA and the Office of Inspector General (OIG) are responsible for enforcing
       EMTALA (see Figure 2 for more information on the EMTALA enforcement process).
       The HCFA authorizes investigations of dumping complaints by State survey agencies,
       determines if a violation occurred, and, if appropriate, terminates a hospital’s provider




EMTALA — Enforcement                                 6                                 OEI-09-98-00221
                               Figure 2: EMTALA Enforcement Process

                                              Complaint received by . . .



                       State survey agency (SA)                  HCFA Regional Office (RO)



         Complaint not authorized           RO authorizes SA to investigate the complaint.
         for investigation.

                                            SA goes to the hospital, unannounced, and begins the investigation.
                                            SA holds an entrance conference with the hospital, examines the
                    KEY                     complaint case and a sample of other emergency department
                                            records, interviews hospital staff, and conducts an exit conference.
                = actions potentially       SA must conduct the investigation within 5 working days of
                affecting Medicare          authorization.
                certification

                                            SA must report to RO 10-15 working days after investigation.
                = actions potentially
                leading to Civil                                                             RO has the option to
                Monetary Penalties          Based on SA’s report, RO decides                 use the peer review
                                            if EMTALA was violated.                          organization (PRO)
                                                                                             for a 5-day review.



         EMTALA was not violated and              EMTALA was not violated, but           EMTALA was violated.
         no past violation was found.             a past violation was found.            (See Figure 4 for
                                                                                         possible actions.)


                                                                                         Termination date set.


          RO notifies the HHS Office of           For medical issues, RO                 SA is directed to re-
          Inspector General (OIG) and the         forwards the medical records to        survey the facility prior
          Office of Civil Rights that the         PRO for 60-day review.                 to termination date.
          hospital violated EMTALA.

                                                  PRO sends the results to OIG.          Hospital in
                                                                                         compliance

                                                                                              Hospital out of
                                                                                              compliance –
          OIG decides not to pursue CMP           OIG has 6 years from the date               Provider agreement
          against the hospital and closes         of the violation to pursue CMP.             terminated
          the case.




       agreement. Within the OIG, the Office of Counsel to the Inspector General assesses civil
       monetary penalties against hospitals and physicians and may exclude physicians from the
       Medicare program. The HCFA may seek the input of the local peer review organization


EMTALA — Enforcement                                        7                                           OEI-09-98-00221
        (PRO) after the investigation, when HCFA must decide whether a violation occurred.
        However, by law HCFA must seek PRO input before it forwards a case to OIG which
        requires a medical judgement of a hospital’s or physician’s liability.3

        State survey agencies perform unannounced, on-site investigations of hospitals and
        forward the results to the regional office. The purpose of these investigations is to
        determine whether a violation occurred, to assess whether the violation endangers patient
        health and safety, to identify any patterns of violations at the facility, and to assess whether
        the hospital has policies and procedures that implement EMTALA’s provisions.

        The number of EMTALA investigations, averaging 400 a year between Fiscal Years 1994
        and 1998, is very small compared to the number of emergency department visits in the
        United States, which totaled approximately 97 million in 1999. In general, less than 50
        percent of investigations confirm a dumping violation (see Figure 3).


                                                  Figure 3




        Hospitals cited for dumping violations rarely lose their provider agreements. Since 1986,
        HCFA has terminated 13 hospitals from Medicare due to EMTALA violations. Only one
        of these terminations occurred after 1993, and it was voluntary. In practice, HCFA does
        not terminate a hospital’s provider agreement if the hospital takes corrective action to
        prevent future violations.

        Civil monetary penalties are relatively uncommon. The OIG closes more than half of the
        cases it reviews. To date, the OIG has processed 677 dumping cases; it has declined


   3
     The OIG can impose a civil monetary penalty without PRO review “[i]f a delay would jeopardize the health or
safety of individuals or when there was no screening examination. . .” 42 C.F.R. § 489.24 (g)(3)
EMTALA — Enforcement                                   8                                     OEI-09-98-00221
        353 cases and settled 226 (decisions in the remaining cases are pending). The number of

        civil monetary penalties assessed by OIG has increased dramatically in recent years, from a

        total of 79 settlements in Fiscal Years 1987 to 1997 to 61 settlements and judgments in

        1999 alone. The increased activity reflects additional OIG staffing that resulted in the

        elimination of a backlog of cases rather than a surge in dumping complaints and confirmed

        violations (the statute of limitations for assessing civil monetary penalties is

        6 years from the date of violation).


Recent Policy Developments

        Implementation of EMTALA has evolved over the years due in part to a lengthy delay
        before final regulations were issued and growing concerns about the impact of managed
        care on access to emergency department services. In addition, issues continue to arise
        over the application of EMTALA to different hospital departments and operations.

        In 1996, HCFA convened a work group composed of representatives of professional
        organizations and regulatory agencies to address enforcement issues as well as the
        definition of key terms in the law and the impact of managed care. The work group’s
        objective “was to produce consensus recommendations for clarifications or changes to the
        statute, regulation, or HCFA’s interpretive guidelines (enforcement procedures), with
        emphasis on changes that could be implemented quickly without legislative action or a
        formal rulemaking process.”4 The work group formed subgroups to address definitions,
        the enforcement process, and the relationship between EMTALA and managed care. The
        group submitted its recommendations in January 1997. The HCFA adopted some of these
        changes when it developed new guidelines for HCFA regional offices and State surveyors.
        These guidelines became effective in July 1998.

        In 1998, HCFA also issued new instructions to State surveyors about the types of
        violations that warranted a 23-day rather than a 90-day termination process. Before 1998,
        HCFA treated almost all EMTALA violations as potential threats to patient health and
        safety that warranted a 23-day termination process. The new guidelines distinguished
        between violations that pose an immediate threat to patient health and safety that would
        trigger 23-day termination and those violations that do not affect health and safety and
        would justify a 90-day termination schedule (see Figure 4 on the following page). For
        example, violations involving a failure to complete required paperwork do not pose a
        threat to health and safety and therefore warrant a 90-day process.

        In November 1999, HCFA and OIG published a Special Advisory Bulletin that
        recommended a number of “best practices” designed to help hospitals comply with
        EMTALA in a managed care environment where health plans may require hospitals to
        obtain prior authorization for emergency services. The Bulletin recommended that
        hospitals not seek such authorization but acknowledged that HCFA and OIG have no


   4
    Joan M. Stieber and Linda J. Spar, “EMTALA in the ‘90s — Enforcement Challenges,” Health Matrix:
Journal of Law-Medicine, Volume 8, Number 1, Winter 1998, pp. 65-66.
EMTALA — Enforcement                                9                                   OEI-09-98-00221
        authority to require health plans to pay for the screening and stabilizing treatment that
        hospitals are obligated to provide under EMTALA.

                       Figure 4: EMTALA Determination and HCFA Actions
         Regional Office                   Regional Office Action                      Hospital Action
         Determination
 Hospital is in compliance—            No action                               No action
 No past violation

 Hospital is in compliance—            Past violation is referred to OIG       No action
 Past violation                        for consideration of possible civil
                                       monetary penalties

 Hospital is not in compliance—        RO begins termination procedures        Hospital has 90 days to develop
 Violation does not pose an            and refers the case to OIG for          and implement a corrective
 immediate and serious threat to       consideration of possible civil         action plan to cease termination
 patient health and safety             monetary penalties                      procedures5

 Hospital is not in compliance—        RO begins termination procedures        Hospital has 23 days to develop
 Violation poses an immediate          and refers the case to OIG for          and implement a corrective
 and serious threat to patient         consideration of possible civil         action plan to cease termination
 health and safety                     monetary penalties and to the           procedures4
                                       Office for Civil Rights for
                                       possible action under Hill-Burton



Previous Office of Inspector General Studies on EMTALA

        In 1988, shortly after Congress enacted EMTALA, the OIG issued two reports on the
        new law. The first report assessed whether hospital records provided enough information
        to determine the incidence of patient dumping. The study concluded that reviewing these
        records alone was inconclusive. The second report assessed the complaint and
        investigation process for dumping cases and found that the process was still evolving,
        coordination among different components needed improvement, and resolution of
        dumping complaints was time-consuming. In 1995, the Office of Inspector General issued
        a third report on enforcement of EMTALA and focused on HCFA. Although the report
        concluded that the investigation process was generally effective, it highlighted
        inconsistency among the regional offices with respect to their procedures and compliance
        with HCFA guidelines.




   5
    If the hospital does not implement a corrective action plan within 21 days (in the case of a 23-day termination)
or 75 days (in the case of a 90-day termination), the regional office notifies the public of the hospital’s pending
termination through “the most expeditious means available” (e.g., newspaper, television, or radio).
EMTALA — Enforcement                                    10                                      OEI-09-98-00221
METHODOLOGY

        We interviewed staff at four HCFA regional offices, eight State survey agencies, five
        PROs, and the OIG between June and December 1999. We visited HCFA regional offices
        in San Francisco, Dallas, New York, and Atlanta. We chose these regions because they
        have jurisdiction over half the nation’s hospitals, and they have historically processed a
        large number of EMTALA cases.6 We also reviewed some actual EMTALA cases. In
        each region, we visited two State survey agencies and interviewed surveyors and
        managers. We also interviewed staff from the PROs in the four HCFA regions. We used
        standardized discussion guides for all interviews.

        In addition to interviews with Federal and State staff, we interviewed emergency
        department nurses and physicians as well as health care attorneys. We conducted a mail
        survey of emergency department staff and telephone interviews with more than
        100 emergency department managers nationwide for a separate study on awareness and
        impact of EMTALA. During the telephone interviews, we asked managers about the
        impact of EMTALA and their experiences with EMTALA investigations. The companion
        report entitled The Emergency Medical Treatment and Labor Act: A Survey of
        Emergency Department Staff (OEI-09-98-00220), discusses the results of our mail survey
        and interviews with emergency department staff.

        We reviewed relevant HCFA manuals and guidelines as well as law journals. We also
        obtained logs from HCFA that contain information about EMTALA complaints and the
        outcomes of investigations between Fiscal Years 1986 and 1998.




   6
    These four regions accounted for 65 percent of all EMTALA investigations between Fiscal Years 1994 and
1998 (1,330 out of 2,036).
EMTALA — Enforcement                                 11                                    OEI-09-98-00221
                                    FINDINGS

The EMTALA enforcement process is compromised by long
delays and inadequate feedback
       The HCFA requires State survey agencies to complete investigations within 5 working

       days of authorization and submit their reports 10 to 15 working days after the

       investigation is complete. These investigations are labor-intensive and require surveyors

       to review a large volume of documents, including a log of emergency department cases for

       the past 6 to 12 months, policy manuals, minutes from medical staff meetings for the past

       6 to 12 months, credential files, and quality assurance minutes. In addition, State staff

       must review 20 to 50 medical records for emergency department patients. We found that

       State agencies generally meet the mandatory time frames.


       Long delays. Although strict time frames apply to State survey agencies that investigate

       complaints of patient dumping, HCFA itself is not subject to any. Hospitals may wait a

       long time to find out the outcome of an investigation and could be subject to a fast-track

       termination for an incident that occurred months or years before. Long delays in

       reviewing and deciding cases defeat the purpose of the 23-day termination process, which

       is to address immediate threats to patient health and safety.


       The logs that we obtained from HCFA central office confirm that timely processing of

       cases is a longstanding problem (see Figure 5). Between 1994 and 1998, the period

       reflected in the logs, regional offices took an average of 65 days after the State’s

       investigation to determine if a violation occurred. Seven of the 10 HCFA regional offices

       sometimes took as long as a year or more to decide whether a hospital violated EMTALA. 

       Many cases in the logs were marked as “pending,” despite the fact that the original

       complaint often was received years before. For example, the 1998 logs show

       20 cases dating from 1996 as “decision pending.”


       Three State survey agencies that we visited expressed concern about long processing

       times in HCFA regional offices. Staff in one State told us that in some cases 2 years or

       more elapse before the hospital finds out its status. We heard similar concerns from

       emergency department administrators. Three administrators whom we interviewed told us

       that their hospitals had been investigated a year or more earlier, but they were still unsure

       of the outcomes. In one case, the hospital was not cited until 4 years after the

       investigation had occurred. “[The investigation] loses punch if it takes too long,” said one

       emergency department director, “[because] the staff in question leave.” Staff in HCFA

       regional offices acknowledged that they have a backlog of cases.





EMTALA — Enforcement                            12                                 OEI-09-98-00221
                                            Figure 5




       Inadequate feedback. State survey agencies, PROs, and hospitals repeatedly complained
       about lack of feedback from HCFA about the outcome of EMTALA cases. State agencies
       and the PROs, which review material related to alleged dumping violations, rarely learn
       the outcome of the cases they review. The survey agencies are particularly interested in
       the outcome, because they also license hospitals for the State.



The number of EMTALA investigations and their ultimate
disposition vary widely by HCFA region and year
       The volume of investigations within regions occasionally shifts sharply by year, and we
       identified no reason for these swings. In 1994, for example, one of the largest HCFA
       regions handled 119 EMTALA cases, the second highest total nationally. The workload
       has since dropped precipitously, and in 1998 the same region handled only three
       EMTALA cases. Another region logged 42 cases in 1996 and only 7 in 1998.
       Conversely, 7 of the 10 regional offices have seen a rise in their EMTALA caseloads since
       1994. One region’s caseload climbed from 18 cases in 1994 to 74 cases in 1998. Another
       region’s caseload jumped from 13 cases in 1994 to 48 in 1998.

       This inconsistency may mean that hospitals have a higher or lower chance of being
       investigated, depending in large part on their location (see Figure 6). Nationally, we
       identified 1 investigation for every 15 hospitals between Fiscal Years 1994 and 1998. In
       one region, however, there was one EMTALA investigation for every eight hospitals in
       the region during the same period. At the other extreme, the average was 1 investigation
       for every 40 hospitals in another region. These variations may, in part, be explained by
       staffing differences, regional priorities, or the fact that some regional offices are more


EMTALA — Enforcement                           13                                OEI-09-98-00221
       aggressive about screening complaints before they authorize State survey agencies to
       conduct investigations.

                                            Figure 6




       The percentage of investigations that confirm a dumping violation varies greatly by region
       (see Figure 7). Nationally, 40 percent of investigations substantiated a violation between
       Fiscal Years 1994 and 1998. One region, however, found violations in
       22 percent of its investigations while another region found violations in 68 percent of its
       investigations.

                                            Figure 7




EMTALA — Enforcement                           14                                OEI-09-98-00221
       In 1997, the Enforcement Process and Procedures Subgroup of the EMTALA Work
       Group noted “that there was substantial inconsistencies from state agency to state agency
       and from region to region, in both understanding of the guidelines and in the application of
       the guidelines and law at the respective levels.” To address these inconsistencies, the
       subgroup recommended that HCFA consolidate all rules, regulations, and guidelines for
       State survey agencies and HCFA regional offices in a single manual.



Poor tracking of EMTALA cases impedes oversight
       Data collection for EMTALA cases has historically been inconsistent and incomplete. We
       requested investigation logs from HCFA central office in November 1998 and received an
       incomplete set in June 1999. The documents contained numerous errors and omissions;
       each page was stamped “draft,” even though the logs reflected activity between 1994 and
       1998. Key information was absent. Details were missing concerning the complaints that
       did not result in an investigation, the dates investigations were authorized, and the nature
       of the violations, which can range from technical violations involving a failure to complete
       necessary paperwork to more serious infractions such as failure to perform a medical
       screening exam. Common errors in the 1998 logs include illogical dates (e.g., dates of
       investigation precede dates of complaint) and incorrect provider numbers.

       Inconsistencies in data collection formats between regions and central office may explain
       the serious and ongoing problems with the logs. The HCFA central office decided to
       track EMTALA cases in 1995 and requires regions to submit monthly logs, but regional
       offices continue to use their own methods for data collection. One region uses a different
       software application to track cases and previously tracked cases manually (staff reported
       that they have lost EMTALA files). Another region developed its own spreadsheet, and
       staff there told us that they had received no guidance from central office about tracking
       cases. At the time of our interview with this region in June 1999, staff had not submitted
       logs for Fiscal Year 1998. Another region maintains both electronic and manual logs.

       The historical absence of an accurate, complete central database limits HCFA’s ability to
       oversee regional offices. Specifically, central office cannot track regional workloads and
       address longstanding problems. Such problems include lengthy delays before regional
       offices determine whether violations occurred, unacceptable backlogs of cases that are
       several years old, and insufficient screening of complaints to assess their legitimacy.




EMTALA — Enforcement                            15                                OEI-09-98-00221
Peer review is not always obtained before HCFA considers
terminating a hospital for medical reasons
        Although HCFA instructs State survey agencies to conduct professional medical review
        (physician review) during their investigations of alleged dumping violations and provides
        explicit guidelines about what this review should entail, this does not always occur. In
        1998, HCFA specified that “review physicians should be board-certified (if the physician
        being reviewed is board-certified) and should be actively practicing in the same medical
        specialty as the physician treating the patient whose case led to an alleged violation.”
        Three State survey agencies out of the eight that we contacted had problems obtaining
        appropriate physician review. One agency does not employ or contract with any
        physicians, and the remaining two had longstanding problems finding physicians to work
        for the State.

        After the State’s investigation, regional offices may ask their local PRO to perform a
        5-day review to obtain additional medical expertise. This review is discretionary, even if
        the State did not obtain professional medical review during its investigation. Four out of
        the five PROs that we contacted either conduct few or no 5-day reviews.

        In contrast, PRO review is, in nearly all circumstances, mandatory before OIG assesses
        civil monetary penalties, and in many instances the PRO’s assessment leads OIG to drop a
        case. In 1990, Congress added a provision to section 1867 of the Social Security Act that
        requires PRO review under certain circumstances before imposition of civil monetary
        penalties. By statute, the PRO has 60 days to complete this review. The PRO assesses
        whether a patient had an emergency medical condition that was not stabilized, in addition
        to other medical issues. According to HCFA guidelines, “the PRO must offer to discuss
        the case with the involved physician(s) and hospital(s) and provide them with an
        opportunity to submit additional information.” In 1997, the OIG noted that in some
        regions the PROs disputed HCFA’s decision about a case as much as 33 percent of the
        time.7




   7
    Recommendations, The Enforcement Process and Procedures Subgroup, p. 4.
EMTALA — Enforcement                               16                              OEI-09-98-00221
                       RECOMMENDATIONS


The HCFA central office should increase its oversight of
regional offices
       The EMTALA enforcement process is marked by considerable inconsistency; this is the

       result of the decentralized nature of the process and the sheer number of agencies

       involved.


       We recommend that HCFA central office: 

       <     monitor regions’ conduct of investigations more closely;

       <     consolidate all rules, regulations, and guidelines in a single manual; and

       <     establish time frames for regional decisions and intervene if regional offices fail to

             meet them.



The HCFA should continue to improve collection and access
to EMTALA data
       To facilitate oversight of the regional offices and State survey agencies that play critical
       roles in EMTALA enforcement, HCFA central office should continue to improve data
       collection. Without aggregate data on complaints and the nature of dumping violations, it
       is impossible to assess the prevalence of patient dumping or whether the violations
       threaten patient health and safety. Also, PROs and State survey agencies should have
       access to data on EMTALA cases so that they can learn the outcomes.



The HCFA should ensure that peer review occurs before
initiating termination actions in cases involving medical
judgment
       The HCFA expects States to obtain professional medical review when they investigate
       hospitals but does not seek peer review if State agencies fail to follow HCFA’s
       instructions. As a result, hospitals may be subject to termination without the benefit of
       peer review of a physician’s actions. The HCFA should ensure that peer review occurs
       before it seeks termination of a hospital’s provider agreement on medical grounds.
       According to HCFA guidelines, “appropriate physician review may be performed by
       qualified SA [State agency] physicians or under agreements or contracts with the State
       PRO, the State or local medical association, or other physician groups or individuals.”


EMTALA — Enforcement                            17                                 OEI-09-98-00221
The HCFA should establish an EMTALA technical advisory
group
       The HCFA disbanded the EMTALA Work Group after it submitted its recommendations
       in January 1997. Questions about EMTALA continue to arise, however, and the health
       care landscape continues to change. Given the enormous complexity and impact of
       EMTALA on hospitals and physicians, HCFA should consider establishing a technical
       advisory group comprised of representatives from organizations such as the American
       College of Emergency Physicians, American Hospital Association, and the American
       Association of Health Plans as well as State surveyors, patient advocacy groups, and staff
       from the PROs. Like the original Work Group, the new group could help the agency
       resolve any emerging issues related to implementation of the law. Current issues include
       specialists who refuse to serve on call panels and inconsistencies between State and
       Federal law governing emergency medical services.



AGENCY COMMENTS

       We received written comments from HCFA on the draft report, which are included in the
       appendix. The HCFA concurred with our recommendations. The comments describe a
       dedicated HCFA effort to reduce backlogs, improve data collection, and increase
       coordination among the regions. The HCFA also offered several technical comments,
       which we have incorporated where appropriate.




EMTALA — Enforcement                           18                                OEI-09-98-00221
                                          APPENDIX


                       Agency Comments





EMTALA — Enforcement          19             OEI-09-98-00221
                            APPENDIX




EMTALA — Enforcement   20      OEI-09-98-00221
                            APPENDIX




EMTALA — Enforcement   21      OEI-09-98-00221
                            APPENDIX




EMTALA — Enforcement   22      OEI-09-98-00221
